                                      TVA RESTRICTED INFORMATION




Memorandum from the Office of the Inspector General



September 25, 2014

Christopher R. Church, LP 3R-C

REQUEST FOR MANAGEMENT DECISION – EVALUATION 2014-15056 – REVIEW OF
TVA’S NUCLEAR GROUNDWATER PROTECTION PROGRAM



Attached is the subject final report for your review and management decision. You are
responsible for determining the necessary actions to take in response to our findings.
Please advise us of your management decision within 60 days from the date of this report.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions or wish to discuss our findings, please contact Heather R.
Kulisek, Manager, Evaluations, at (423) 785-4815 or Gregory R. Stinson, Director,
Evaluations, at (865) 633-7367. We appreciate the courtesy and cooperation received from
your staff during the audit.



Robert E. Martin
Assistant Inspector General
 (Audits and Evaluations)
ET 3C-K

HRK:FAJ
Attachment
cc (Attachment):
      William D. Johnson, WT 7B-K
      Dwain K. Lanier, MR 3K-C
      Justin C. Maierhofer, WT 7B-K
      Richard W. Moore, ET 4C-K
      R. Windle Morgan, WT 4D-K
      Ricardo G. Perez, LP 3R-C
      Robert E. Richie Jr., BR 3C-C
      John W. Underwood, BR 3C-C
      TVA Board of Directors
      OIG File No. 2014-15056


      WARNING: This document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
      distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
              is not to be further distributed without prior approval of the Inspector General or his designee.

                                      TVA RESTRICTED INFORMATION
                               TVA RESTRICTED INFORMATION


Office of the Inspector General                         Evaluation Report
                                                                                To the Vice President,
                                                                                Operations Support




REVIEW OF TVA’S
NUCLEAR GROUNDWATER
PROTECTION PROGRAM




Audit Team                                                                                            Evaluation 2014-15056
Heather R. Kulisek                                                                                      September 25, 2014
Meghan H. Petty

             WARNING: This document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
             distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
                     is not to be further distributed without prior approval of the Inspector General or his designee.


                             TVA RESTRICTED INFORMATION
Office of the Inspector General                                        Evaluation Report




ABBREVIATIONS
ANI                        American Nuclear Insurers
CY                         Calendar Year
EPA                        Environmental Protection Agency
EPRI                       Electric Power Research Institute
GPI                        Groundwater Protection Initiative
GWPP                       Groundwater Protection Program
NEI                        Nuclear Energy Institute
NPG                        Nuclear Power Group
NRC                        Nuclear Regulatory Commission
OIG                        Office of the Inspector General
PER                        Problem Evaluation Report
REMP                       Radiological Environmental Monitoring Program
SPP                        Standard Programs and Processes
TVA                        Tennessee Valley Authority




Evaluation 2014-15056

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                 Evaluation Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVE, SCOPE, AND METHODOLOGY ........................................ 2

FINDINGS ......................................................................................................... 3
    WHILE THE NUCLEAR POWER GROUP PERFORMED REQUIRED
    REPORTING, WE COULD NOT VERIFY ALL THE MONITORING
    WAS COMPLETED ......................................................................................... 3

    NUCLEAR POWER GROUP’S GROUNDWATER PROTECTION
    PROGRAM TOOK CORRECTIVE ACTION FOR LEAKS AND SPILLS ......... 4

    NUCLEAR POWER GROUP’S GROUNDWATER PROTECTION
    PROGRAM HAS OUTSTANDING PROGRAMMATIC WEAKNESSES .......... 5

    NUCLEAR POWER GROUP OMITTED AND DOWNGRADED
    FINDINGS FROM THE ELECTRIC POWER RESEARCH INSTITUTE
    IN ITS FLEET SELF-ASSESSMENT .............................................................. 6

    THERE IS NO FORMAL PROCESS FOR MONITORING ACTION
    ITEMS IDENTIFIED IN EXTERNAL ASSESSMENTS .................................... 7

RECOMMENDATIONS .................................................................................. 8


APPENDIX A

APPENDIX B




Evaluation 2014-15056

                                      TVA RESTRICTED INFORMATION
           Evaluation 2014-15056 – Review of TVA’s Nuclear
                   Groundwater Protection Program
                           EXECUTIVE SUMMARY

Why the OIG Did This Evaluation

  Based on the findings of our previous review, 2009-12991–TVA’s
  Groundwater Monitoring at Coal Combustion Products Disposal Areas, we
  evaluated the Tennessee Valley Authority’s (TVA) Nuclear Power Group
  (NPG) Groundwater Protection Program (GWPP). Groundwater
  contamination can result from routine nuclear plant activities such as wet
  storage of spent fuel, leaks from liquid waste pipelines and tanks, and
  leaks of contaminated cooling water. NPG’s GWPP was designed to
  prevent, detect, and mitigate impacts associated with potential subsurface
  and/or groundwater contamination. The objectives of our review were to
  determine if NPG’s GWPP (1) performed required monitoring and
  reporting and (2) completed required corrective actions based on
  monitoring results.

What the OIG Found

  While NPG’s GWPP performed required reporting, we could not verify the
  monitoring requirements in TVA’s NPG Standard Programs and
  Processes were followed. Our review also found corrective actions were
  taken to address the leaks and spills at TVA’s nuclear plants reported to
  the NRC for the time frame of our review. However, we found
  opportunities for programmatic improvements. There were instances
  where programmatic weaknesses were identified several times over the
  last 5 years and were not remedied. External assessments also noted
  deficiencies in the program that were downgraded or excluded when NPG
  performed its fleet self-assessment. In addition, there is not a formal
  process in place to ensure recommendations and/or action items made by
  external consultants are addressed.

What the OIG Recommends

  We recommend the Vice President, Functional Area and Outage
  Governance:

     Develop and implement a process that includes:
      1. Appropriately classifying and addressing recommendations and/or
         action items identified in external assessments.

      2. Requiring documentation of deviations from recommendations to
         correct deficiencies identified by external assessments.


                                                                       Page i

                      TVA RESTRICTED INFORMATION
           Evaluation 2014-15056 – Review of TVA’s Nuclear
                   Groundwater Protection Program
                            EXECUTIVE SUMMARY

      3. Capturing outstanding site and fleet deficiencies within periodic
         fleet self-assessments.
     Require sites to revisit outstanding programmatic weaknesses to
      develop a remediation plan and establish a time frame for completion;
      if no action is planned, document the reasons.
     Incorporate the Senior Manager, Chemistry Oversight, in the
      remediation efforts for deficiencies identified by external consultants
      and industry groups to ensure issues are appropriately addressed,
      lessons learned and best practices are shared among NPG sites, and
      implemented at a fleet level when needed.

TVA Management’s Comments

  TVA management agreed with the findings and recommendations and
  provided various contextual and clarifying comments, which we evaluated
  and incorporated into the final report as appropriate.

Auditor’s Response

  The OIG (Office of the Inspector General) concurs with TVA
  management’s response.




                                                                         Page ii

                       TVA RESTRICTED INFORMATION
Office of the Inspector General                                                         Evaluation Report


BACKGROUND
Groundwater contamination can result from routine nuclear plant activities such
as wet storage of spent fuel, leaks from liquid waste pipelines and tanks, and
leaks of contaminated cooling water. Radionuclides1 of concern for groundwater
impacts are typically Strontium 89/90, Cobalt 60, Radiocaesium, and Tritium.
After a radioactive spill or leak, Tritium is generally the first radionuclide to be
identified in groundwater because Tritium is chemically bound and travels with
water.

The Safe Drinking Water Act, administered by the United States Environmental
Protection Agency (EPA), sets limits to public exposure to contaminants in
drinking water. EPA regulations establish maximum permissible levels of
contaminants in water delivered by a public water system. According to the
Nuclear Regulatory Commission (NRC), while leaks and spills involving Tritium
have occurred at many commercial power reactors in the United States, no
drinking water supply has exceeded the allowable level for Tritium specified in
EPA’s Safe Drinking Water Act.

Nuclear plants are required by the NRC operating licenses to implement a
program for controlling and monitoring the potential impact of radioactive
effluents2 on the environment through the radiological environmental monitoring
program (REMP). REMP requires sampling of environmental pathways including
waterborne pathways at required intervals and annual reporting.3 Reporting
levels for radioactivity concentrations in environmental samples are specified in
REMP and include reporting levels for Tritium in water consistent with the EPA
maximum permissible levels. If the reporting levels specified in REMP are
exceeded, the licensee is required to prepare and submit a report to the NRC
that identifies the problem and defines its corrective actions.

In response to groundwater contamination events and public concern for such
events, United States commercial nuclear power plants signed a voluntary
agreement in 2006 to adhere to higher standards for groundwater monitoring
than NRC regulations require. The Nuclear Energy Institute (NEI) collaborated
with nuclear industry professionals to develop the Groundwater Protection
Initiative (GPI), NEI 07-07. According to NEI, GPI helps licensees to improve the
(1) management of situations involving inadvertent radiological releases that get
into groundwater and (2) communication with external stakeholders to enhance

1
    Radionuclides are atoms with unstable nuclei that emit gamma rays and/or subatomic particles such as
    alpha or beta particles when they decay. These emissions constitute radiation and can pose a danger to
    health. Radionuclides occur naturally and can be artificially produced.
2
    Radioactive materials are produced during normal reactor operations and released into the environment
    in liquid and gas forms (effluents). Nuclear plants are required to design equipment to keep levels of
    radioactive materials released as low as reasonably achievable and to monitor the amount of effluents
    released.
3
    Each site submits Annual Radiological Environmental Operating Reports and Annual Radioactive
    Effluent Release Reports to the NRC to summarize REMP program activities, provide results from
    monitoring samples, and document deviations from planned effluent releases to the environment.
Evaluation 2014-15056                                                                              Page 1

                                   TVA RESTRICTED INFORMATION
Office of the Inspector General                                                            Evaluation Report


trust and confidence on the part of local communities, states, the NRC, and the
public in the nuclear industry’s commitment to a high standard of public radiation
safety and protection of the environment. The GPI also requires plants to set
time frames for risk assessments, hydrology reviews, and well monitoring
reviews.

The Tennessee Valley Authority’s (TVA) NPG Standard Programs and
Processes (SPP) define the essential elements of the Groundwater Protection
Program (GWPP) in NPG-SPP-05.15, Fleet Groundwater Protection Program.
The manner in which to address and informally communicate radioactive spill
and leak events to outside agencies is described in NPG-SPP-05.14, Guide for
Communicating Inadvertent Radiological Spills/Leaks to Outside Agencies. The
primary elements of the GWPP are prevention, early detection, and mitigation of
impacts associated with potential subsurface and/or groundwater contamination.
Unmonitored spills or leaks from a source containing radioactive materials that
exceed 100 gallons (or are likely to exceed 100 gallons) and have the potential to
enter groundwater, or a confirmed result of an off-site groundwater or surface
water sample that exceeds reporting levels as part of the REMP program, are
required to be reported using this procedure.

OBJECTIVE, SCOPE, AND METHODOLOGY
Based on the findings of our previous review, 2009-12991 – TVA’s Groundwater
Monitoring at Coal Combustion Products Disposal Areas,4 we evaluated the
Nuclear Power Group’s (NPG) GWPP. The objectives of our review were to
determine if NPG’s GWPP (1) performed required monitoring and reporting, and
(2) completed required corrective actions based on monitoring results. The
scope of our review for groundwater monitoring results included Calendar Year
(CY) 2012 and CY2013. Due to the infrequency of events, the scope was
expanded to include CY2009 through CY2013 for corrective actions related to
spills and leaks and our review of industry assessments.

To achieve our objectives, we interviewed key TVA personnel for groundwater
monitoring at TVA corporate and nuclear sites to:

    Determine TVA’s processes and procedures for monitoring groundwater.
    Clarify details related to the fleet self-assessment completed by TVA’s NPG.
    Identify opportunities for program improvement.



4
    The objectives of this review were to determine whether TVA has (1) performed groundwater monitoring
    as prescribed by the permits and (2) found levels of constituents monitored that exceeded regulatory limits
    and, if so, implemented any required corrective actions. During our review, we found that in some
    instances, TVA was not performing monitoring as prescribed by the permits. Additionally, exceedances
    were found at eight of the nine fossil plants where monitoring is being conducted. TVA has two plants in
    Tennessee (Cumberland and Gallatin Fossil Plants) that have constituents that exceeded health-based
    limits and are working through the corrective action process described in Tennessee Rule 1200-1-7.
Evaluation 2014-15056                                                                                 Page 2

                                     TVA RESTRICTED INFORMATION
Office of the Inspector General                                      Evaluation Report


In addition, we reviewed:

   Regulations, industry guidance, and SPPs to determine monitoring and
    reporting requirements.
   Well testing results for the most recent 2 years to determine whether required
    monitoring was performed as required.
   Decommissioning files and annual reports submitted to the NRC to identify
    spills and leaks occurring within the past 5 years.
   Problem Evaluation Reports (PERs) related to spills and leaks to determine
    whether required corrective actions were completed.
   2013 Groundwater Fleet Self-Assessment to identify planned improvements.
   Prior assessments of groundwater protection by American Nuclear Insurers
    (ANI), Electric Power Research Institute (EPRI), NEI, and external
    consultants to determine if recommendations and/or action items were
    addressed.

This review was performed in accordance with the Council of the Inspectors
General for Integrity and Efficiency’s Quality Standards for Inspection and
Evaluation.

FINDINGS
While NPG’s GWPP performed required reporting, we could not verify all the
monitoring requirements in TVA’s NPG SPPs were followed. Our review also
found corrective actions were taken to address the leaks and spills at TVA’s
nuclear plants reported to the NRC for the time frame of our review. However,
we found opportunities for programmatic improvements. There were instances
where programmatic weaknesses were identified several times over the last
5 years and were not remedied. External assessments also noted deficiencies in
the program that were downgraded or excluded when NPG performed its fleet
self-assessment. In addition, there is not a formal process in place to ensure
recommendations and/or action items made by external consultants are
addressed.

WHILE NPG PERFORMED REQUIRED REPORTING, WE COULD
NOT VERIFY ALL THE MONITORING WAS COMPLETED
Our review of documentation found that NPG’s GWPP was following the
reporting monitoring requirements prescribed in NPG-SPP-05.14, Guide for
Communicating Inadvertent Radiological Spills/Leaks to Outside Agencies ;
however, we could not verify that the monitoring requirements in NPG-SPP-
05.15, Fleet Ground Water Protection Program were followed. Specifically,



Evaluation 2014-15056                                                          Page 3

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                           Evaluation Report


Browns Ferry Nuclear Plant could not provide the data for CY2012 testing results
for the testing done on hard-to-detect radionuclides.5

Between CY2009 and CY2013, there were two reportable exceedances.
Sequoyah Nuclear Plant exceeded on-site reporting levels for Tritium in much of
2013 from a previously identified leakage. In addition, a Tritium leak at Browns
Ferry was identified in 2010. In both instances, the exceedance was properly
reported according to TVA’s SPP to communicate to the NRC through an event
notification report and Tritium levels were reported in subsequent annual reports
to the NRC. Public notification was also provided as TVA procedures require.

TVA’s NPG-SPP-05.15, Fleet Ground Water Protection Program, requires sites
to establish a groundwater sampling schedule for radionuclides and provides
guidance on sampling frequency and radionuclides to be included in site-level
procedures. The site-level procedures establish testing schedules for Tritium
and other radionuclides in monitoring wells. Based on the monitoring results we
reviewed for CY2012 through CY2013, all of the sites performed the Tritium
testing required in site procedures.

Site procedures also require the wells with the highest Tritium concentration (and
those that have met other criteria) should be sampled for hard-to-detect
radionuclides. Browns Ferry was unable to provide us the CY2012 testing
results for hard-to-detect radionuclides; therefore, we could not confirm all of the
testing for hard-to-detect radionuclides had been completed. Specifically, the
well with the highest Tritium concentration should have been tested for hard-to-
detect radionuclides at least once in CY2012. In addition, two other wells, which
met the criteria for an increase in the Tritium concentration of 50 percent or more,
should also have been tested for hard-to-detect radionuclides in CY2012.

NUCLEAR POWER GROUP’S GROUNDWATER PROTECTION
PROGRAM TOOK CORRECTIVE ACTION FOR LEAKS AND
SPILLS
Our review also found corrective actions were taken to address the leaks and
spills at TVA’s nuclear plants reported to the NRC for the time frame of our
review. Leaks and spills are inadvertent releases of liquid effluents into the
environment. We reviewed annual reports to the NRC to identify leaks and spills
reported between CY2009 and CY2013. We identified 9 leaks and spills with
radioactive activity at TVA nuclear plants–3 at Browns Ferry, 3 at Sequoyah, and
3 at Watts Bar Nuclear Plant. For each leak or spill, we identified and reviewed
pertinent PERs to ascertain whether there were planned corrective actions to
remedy the leak or spill. We found planned actions were complete for all the
PERs we reviewed.



5
    Hard-to-detect radionuclides include Strontium-89, Strontium-90, Iron-5, Nickel-63 and Gross Alpha.
Evaluation 2014-15056                                                                                Page 4

                                    TVA RESTRICTED INFORMATION
Office of the Inspector General                                      Evaluation Report


NUCLEAR POWER GROUP’S GROUNDWATER PROTECTION
PROGRAM HAS OUTSTANDING PROGRAMMATIC WEAKNESSES
Our review of prior assessments of the NPG’s GWPP by ANI, EPRI, NEI, and
external consultants found fleet and site-level deficiencies that are unaddressed.
We identified six programmatic weaknesses that were identified in multiple
reports between 2009 and 2013 (see Appendix A for more detail about the
deficiencies). For the purposes of this review, we considered programmatic
weaknesses to be those issues that impacted two or more sites and remained
outstanding for at least one site in the most recent year for which reports were
available. Outstanding recommendations and deficiencies affect not only TVA’s
compliance with GPI but also indicate indifference toward improving the program.

   Longstanding Issues at Multiple Sites – Two programmatic weaknesses were
    present at two sites for a number of years. The Assess Storm Drain Integrity
    recommendation identified in 2009 at Watts Bar and Sequoyah remains
    pending at Watts Bar. The deficiency was closed in 2012 at Sequoyah. The
    Evaluation of the Potential for Unplanned and Unmonitored Releases Off-Site
    recommendation remains in open or pending status at Sequoyah and Watts
    Bar and was identified in 2008 and 2009, respectively.
   Recommendations and Deficiencies Identified at One Site That Appears at
    Another – We found three programmatic weaknesses where a
    recommendation or deficiency was remedied at a NPG site and, subsequently
    or simultaneously, a similar recommendation or deficiency was identified at
    another NPG site. Specifically the recommendations and deficiencies were
    related to:
    - Surface Water Testing for Hard-to-Detect Radionuclides.
    - Approval and Implementation of Hydrology Reports.
    - Characterization of Tritium plumes.

   An Outstanding Deficiency at All NPG Sites – A deficiency, Evaluate the
    Potential for Detectable Levels of Radioactive Materials from Planned
    Releases of Liquids/Airborne Materials, was identified by three industry
    groups (NEI, an external consultant, and EPRI) over the course of the 5-year
    period we reviewed. Currently, the deficiency remains outstanding. It was
    included in the 2013 Fleet Self-Assessment as a learning opportunity.

The 2013 EPRI Assessment at Watts Bar observed: “Currently there is limited
communications between the TVA plants about groundwater protection. Sharing
of lessons learned, experiences, best practices, procedures, technologies may
be beneficial to the groundwater protection programs at all TVA sites.” Better
communication among NPG sites and with the Senior Manager, Chemistry
Oversight, could reduce the risk of having similar recurrent findings from external
assessments and assist sites in remedying outstanding recommendations and
deficiencies.

Evaluation 2014-15056                                                          Page 5

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                Evaluation Report


NUCLEAR POWER GROUP OMITTED AND DOWNGRADED
FINDINGS FROM THE ELECTRIC POWER RESEARCH
INSTITUTE IN ITS FLEET SELF-ASSESSMENT
We found that TVA’s NPG has planned actions to improve the effectiveness of
the NPG’s GWPP based on a fleet self-assessment; however, several of the
deficiencies identified by an EPRI assessment were excluded or downgraded in
the fleet self-assessment. EPRI conducted an assessment of Watts Bar’s
compliance with GPI in 2013. Based on EPRI’s assessment at Watts Bar, NPG
conducted a fleet self-assessment in 2013 in order to identify areas for
improvement to the GWPP. The omission and downgrading of findings from
industry experts increases the risk of noncompliance with the requirements of the
GPI.

Self-assessments within TVA’s NPG are designed to identify deficiencies
(compliance weaknesses, failures to meet policy or regulatory requirements, and
unacceptable performance) as well as learning opportunities. Learning
opportunities are recognized practices that should be evaluated for adoption at
TVA. The groundwater fleet self-assessment focused on compliance with GPI
and alignment with industry guidance from EPRI.6 We reviewed TVA’s actions to
remedy the deficiencies and learning opportunities from the fleet self-assessment.
We determined actions were being taken to address key areas found in the fleet
self-assessment. Fleet-level procedural changes resulting from the fleet self-
assessment are in progress and will be revised by August 2014 in advance of the
release of an internal results review report.

While the fleet self-assessment stated, “Recommendations and deficiencies from
the EPRI Assessment are included in this assessment and were evaluated for
applicability at the other two sites and the fleet program procedures,” several of
the deficiencies and learning opportunities that were identified through EPRI were
excluded from the fleet self-assessment. Our comparison found that five of the
eight deficiencies identified by EPRI at Watts Bar were not included in the fleet
self-assessment with no documented explanation for their exclusion. Two of the
three remaining deficiencies identified by EPRI were downgraded in the fleet self-
assessment to learning opportunities rather than deficiencies, and all three were
entered into the Corrective Action Program as Enhancements rather than
Corrective Actions. Enhancement-type actions are actions that are not required to
be performed to satisfactorily correct or prevent a recurrence of conditions
adversely affecting regulatory compliance, plant reliability or personnel/nuclear
safety. Appendix B provides details about the deficiencies and recommendations.

In addition, EPRI made fleet-level learning opportunity recommendations that
were omitted from the fleet self-assessment. For example, they recommended a

6
    The EPRI released its Groundwater Protection Guidelines for Nuclear Power Plants in 2007 to
    provide technical guidance to utilities on the necessary elements of a sound groundwater
    protection program in compliance with NEI 07-07.
Evaluation 2014-15056                                                                    Page 6

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                      Evaluation Report


single repository for groundwater related documentation, a periodic review of
groundwater data by a qualified hydrogeologist, and assigning a corporate
sponsor to act as advocate and coordinator.

We also found a discrepancy in the overall compliance status reported in the
NPG fleet self-assessment as compared to EPRI’s assessment with no
documented explanation for the discrepancy. NPG’s fleet self-assessment
states, “Overall the Fleet Ground Water Program meets the NEI 07-07 initiative
with some deficiencies identified in program implementation.” However, the
EPRI assessment found that the Watts Bar GWPP “is currently not in full
compliance with NEI 07-07, Groundwater Protection Initiative.”

THERE IS NO FORMAL PROCESS FOR MONITORING ACTION
ITEMS IDENTIFIED IN EXTERNAL ASSESSMENTS
We found there was not a formal process in place to ensure outstanding
recommendations and deficiencies from external assessments identified above
were tracked and completed. Four of the assessments reviewed during our
evaluation identified issues with the remediation of recommendations and/or
action items. The responsibility for addressing the recommendations and/or
action items falls to sites where there is limited groundwater expertise. Without a
formalized process to ensure recommendations and/or action items are tracked
and completed, there is an increased risk that the GWPP may not be in
compliance with GPI.

NEI observed in its 2009 assessment of Watts Bar and Browns Ferry that PERs
were closed with no action taken to resolve the deficiencies. Similarly, in
2009 Sequoyah was asked by ANI to formally evaluate recommendations from a
2007 hydrology report. ANI closed its deficiency in 2012 stating actions items
related to these recommendations were entered into the Corrective Action
Program. EPRI also noted this issue in its 2013 assessment at Watts Bar. It
stated Watts Bar should document follow up on previous inspections, audits, and
assessments.

The responsibility for entering and tracking actions in the Corrective Action
Program falls to NPG sites. Fleet-level corrective actions are handled by the
Senior Manager, Chemistry Oversight. There is no requirement in TVA’s NPG
SPPs related to Groundwater or the Corrective Action Program that each item
listed in an external assessment be included as a PER in the Corrective Action
Program. In an interview, TVA management acknowledged difficultly in tracking
actions taken toward remedying prior external findings and recommendations.

One of EPRI’s learning opportunities identified in 2013 was to “evaluate
assigning a corporate sponsor to act as an advocate and coordinator.” EPRI
noted most multi-station utilities have an individual assigned at corporate to
advocate for the groundwater protection program and coordinate programs
between sites, ensuring groundwater protection and environmental stewardship
Evaluation 2014-15056                                                          Page 7

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                        Evaluation Report


are maintained at the level to which the nuclear industry is committed. TVA’s
groundwater program is not designed in this manner, but relies on site-level
groundwater contacts to address recommendations appropriately. However, we
found limited groundwater expertise at NPG nuclear sites. Of the individuals
designated as groundwater contacts in 2009, none remained as a contact at the
time of our review. According to TVA management, the current groundwater
contacts at two of the sites are novices in their area of responsibility. An external
consultant’s report from 2011 recommended training on NEI requirements for all
NPG sites. There is no indication that the recommended training was
implemented.

The lack of a formal process to track and monitor the actions at a fleet level may
have contributed to recurrent programmatic weaknesses discussed in a prior
finding and outstanding recommendations. In addition, limited groundwater
expertise at the sites may impair proper handling of corrective actions and could
lead to noncompliance with GPI.

RECOMMENDATIONS
We recommend the Vice President, Functional Area and Outage Governance:

   Develop and implement a process that includes:
    1. Appropriately classifying and addressing recommendations and/or action
       items identified in external assessments.

    2. Requiring documentation of deviations from recommendations to correct
       deficiencies identified by external assessments.

    3. Capturing outstanding site and fleet deficiencies within periodic fleet self-
       assessments.
   Require site to revisit outstanding programmatic weaknesses to develop a
    remediation plan and establish a time frame for completion; if no action is
    planned, document the reasons.
   Incorporate the Senior Manager, Chemistry Oversight, in the remediation
    efforts for deficiencies identified by external consultants and industry groups
    to ensure issues are appropriately addressed, lessons learned and best
    practices are shared among NPG sites, and implemented at a fleet level
    when needed.

TVA Management’s Comments – TVA management agreed with the findings
and recommendations and provided various contextual and clarifying comments,
which we evaluated and incorporated into the final report as appropriate.

Auditor’s Response – The Office of the Inspector General concurs with TVA
management’s response.

Evaluation 2014-15056                                                            Page 8

                                  TVA RESTRICTED INFORMATION
                                                                      APPENDIX A
                                                                       Page 1 of 2

The following is a description of the recommendations and deficiencies identified
as programmatic weaknesses.

Assess Storm Drain Integrity
The integrity assessment should consider inspection for debris, line breaks, or
any discontinuity that would contribute to the potential for an unplanned and
unmonitored release of radioactive material to groundwater. In 2009, American
Nuclear Insurers (ANI) reported a need for storm drain (and yard drain) integrity
assessments at Watts Bar Nuclear Plant and Sequoyah Nuclear Plant.
Sequoyah closed the deficiency in 2012; however, the deficiency was pending as
of 2013 at Watts Bar The 2013 Fleet Self-Assessment does not identify this
weakness in the groundwater program.

Evaluation of the Potential for Unplanned and Unmonitored
Releases Off-Site
In 2008, ANI advised Watts Bar to conduct an evaluation to ensure fundamental
elements of the Electric Power Research Institute (EPRI) Groundwater Guideline
and ANI Guideline 07-01, Potential for Unmonitored and Unplanned Off-Site
Releases of Radioactive Material were incorporated into the groundwater
evaluations at the site. Sequoyah was advised similarly in a 2009 ANI Inspection
Report. The recommendations at both sites are pending as of 2013. The
2013 Fleet Self-Assessment does not identify this weakness in the groundwater
program.

Surface Water Testing for Hard-to-Detect Radionuclides
Nuclear Power Group (NPG) sites have each been advised by ANI to include
surface waters in sampling protocols within the period we reviewed. In
2007, Sequoyah was advised to test its yard pond and yard drain systems, and in
2010, it was advised to test its sanitary sewage tank. Recommendations were
closed in 2010 and 2012, respectively. Browns Ferry Nuclear Plant was advised
to test its storm drain and sewage system in 2010, closing the recommendations
in 2011. While Watts Bar was advised in 2008 to test its sanitary sewage in hard-
to-detect radionuclides sampling and the recommendation was closed in
2011, the site was again advised in 2013 by ANI to include storm water discharge,
yard holding pond, and sanitary sewage in hard-to-detect radionuclides sampling
when Tritium analysis indicate contamination due to plant related
radionuclides. The 2013 Fleet Self-Assessment contains a learning opportunity to
improve clarity in defining the exact requirements for surface water collection
points for early leak detection.

Approval and Implementation of Hydrology Reports
Hydrology reports identify groundwater flow and gradients. The Groundwater
Protection Initiative, Nuclear Energy Institute (NEI) 07-07, requires sites establish
the frequency for periodic reviews of site hydrology. The Tennessee Valley
Authority established a 5-year update cycle. However, prior assessments
repeatedly noted sites did not comply with this cycle or had not implemented the
most recent findings from the hydrology into its safety plan, as required. The


                            TVA RESTRICTED INFORMATION
                                                                     APPENDIX A
                                                                      Page 2 of 2

Brown’s Ferry 2009 NEI assessment noted hydrology reports should include a
statement on whether any updates to the safety plan are necessary. A 2009 ANI
Inspection Report from Sequoyah notes the site had not formally evaluated or
dispositioned recommendations made in its 2007 hydrology report. The
recommendation was not cleared until 2012. EPRI cited Watts Bar in 2013 for
not updating the hydrology report since August 2004. The update was scheduled
for 2009, but was canceled. NEI requested the update to be completed as soon
as practical in its 2009 assessment. EPRI recommended a 2011 Groundwater
Investigation Report from 2011 to be approved as final as soon as possible and
for the site’s safety plan to be evaluated based on its results. Watts Bar input the
deficiency noted by EPRI as an Enhancement in the Corrective Action Plan. In
the 2013 Fleet Self-Assessment, each site was noted as being deficient in
identifying needed updates to its safety plans based on recent hydrology reports.

Characterization of Tritium Plumes
NPG sites were cited by ANI within the period we reviewed for having incomplete
characterization of the Tritium plumes at the facilities. In 2007, ANI requested
Sequoyah characterize on-site plumes horizontally and vertically, including
maximum concentrations and areas actually or potentially affected by earlier
leaks. In 2009, ANI made a recommendation that Watts Bar recharacterize the
tritium plumes. ANI recommendations were closed in 2012 at Sequoyah and in
2011 at Watts Bar. However, a similar recommendation was made to Browns
Ferry in 2010 to periodically characterize and track the tritium plume that exists
there. This recommendation is pending until progress allows a more complete
characterization. This issue does not arise in the 2013 Fleet Self-Assessment.

Evaluate the Potential for Detectable Levels of Licensed Material Resulting
From Planned Releases of Liquids and/or Airborne Materials
In the 2009 NEI assessments of all NPG sites, it was noted that the sites did not
meet the objective to “evaluate the potential for detectable levels of licensed
material resulting from planned releases of liquids and/or airborne materials.” The
recommended correction was to “prepare written evaluation of the potential
contribution to groundwater radionuclide concentrations from planned releases.” In
2011, an external consultant noted this as an area for further evaluation to reduce
risk at all NPG sites. The issue was also identified in 2013 as a deficiency in
EPRI’s assessment of Watts Bar. This deficiency is currently categorized in the
Corrective Action Program as a fleet-wide enhancement.




                            TVA RESTRICTED INFORMATION
                                                                       APPENDIX B
                                                                        Page 1 of 1

The following is a list of the five areas where deficiencies were identified by the
Electric Power Research Institute at Watts Bar Nuclear Plant and were not
included in the fleet self-assessment.

   Identify potential pathways for groundwater migration from on-site locations to
    off-site locations through groundwater.
   Assess system, component structures and work practices for risk to
    groundwater including leak detection capabilities and enhancements, spill and
    leak detection mechanisms and enhancements, and long-term preventative
    maintenance programs to minimize the potential for licensed material to reach
    groundwater.
   Use the hydrology and geology studies developed under the Groundwater
    Protection Initiative, Objective 1.1, consider placement of groundwater
    monitoring wells down gradient from the plant but within the boundary defined
    by the site license.
   Consider, as appropriate, placing sentinel wells closer to systems, structures,
    and components that have the highest potential for inadvertent releases that
    could reach groundwater or systems, structures, and components where leak
    detection capability is limited.
   Establish sampling and analysis protocols, including analytical sensitivity
    requirements for groundwater and soil.

The two areas where deficiencies were identified by the Electric Power Research
Institute and, subsequently, downgraded in the fleet self-assessment to learning
opportunities rather than deficiencies are described below.

   Evaluate the potential for detectable levels of licensed material resulting from
    planned releases of liquids and/or airborne materials.
   The Groundwater Protection Program/Underground Piping and Tanks
    Integrity Program Interface and coordination are not being conducted in
    accordance with applicable site procedural requirements.

In addition, there was one deficiency that was entered as an enhancement rather
than corrective action related to completing periodic reviews of site hydrogeologic
studies according to established frequency.




                            TVA RESTRICTED INFORMATION
